                             -   -       .   -   -   .-   -- - -   -.   -

                                                           1
           ,     I        \-NATIONALSCIENCE FOUNDAT? '
                             WASHINGTON, D.C. 20550




    Office of
Inspector General



 CLOSING MEMORANDUM

         DATE: July 6, 1990
     SUBJECT: File 016-90-3132       ( v~D-J+\
               TO: File
         FROM: Counsel to the Inspector General??
  This matter .can best be described as a dispute between private
  parties involving employment and private grants.   In my opinion,
  there is no basis for investigating this matter under any statute
  or regulation which provides authority for our operations.
  Accordingly, I recommend that this matter be closed.




  Concur:


  ~ssistant-~nspector
  7-\
    -                -
                   General for Oversight
                                         -
